Office of Inspector General


     March 28, 2005

     MEMORANDUM

     TO:               Mission Director, US AID/West Bank and Gaza, James A. Bever

     FROM:             Regional Inspector General/Cairo, David H. Pritchard /s/

     SUBJECT:          Information on Status and Results of the First 30 Financial Audits of
                       USAID/West Bank and Gaza Activities in Accordance with the
                       Statutory Requirements of the Consolidated Appropriations Acts of
                       2003, 2004, and 2005
                       (Report No. 6-294-05-002-S)

     This memorandum transmits our final report on the status and results of financial
     audits of USAID/West Bank and Gaza activities in accordance with the statutory
     requirements of the Consolidated Appropriations Acts of 2003, 2004, and 2005. This
     is not an audit report, and the report does not contain suggestions or
     recommendations. In finalizing our report, we considered your comments on our draft
     report and have included your response in its entirety in Appendix II.

     I appreciate the cooperation and courtesy extended to our staff throughout the survey.
BACKGROUND
The Consolidated Appropriations Resolution of 2003, the Consolidated Appropriations
Act of 2004, and the Consolidated Appropriations Act of 2005 included the following
requirement.

       The Administrator of the United States Agency for International
       Development shall ensure that Federal or non-Federal audits of all
       contractors and grantees, and significant subcontractors and
       subgrantees, under the West Bank and Gaza Program, are conducted at
       least on an annual basis.

To fulfill this requirement, each of these Acts also provided up to $1 million to the USAID
Office of Inspector General for audits, inspections, and other activities.

The Office of Inspector General has implemented a program under which it annually
audits USAID’s contractors and grantees, and significant subcontractors and
subgrantees, that receive USAID funding for the West Bank and Gaza program.

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s fiscal year 2004
audit plan to answer the following question:

•   What are the status and results of the first 30 financial audits of USAID/West Bank
    and Gaza activities in accordance with the statutory requirements of the Consolidated
    Appropriations Acts of 2003, 2004, and 2005?




                                                                                         1
DISCUSSION
As of February 28, 2005, the Office of Inspector General had procured and overseen 72
financial audits and released 30 final audit reports. Appendix I provides a list of these 30
final reports. We plan to procure and oversee additional audits during fiscal year 2005.

Questioned Costs
The 30 financial audits resulted in $2.0 million in questioned costs out of $50.5 million
audited. The $2.0 million in questioned costs (from 17 of the 30 audit reports) were 4.0
percent of the total costs audited.

           Table 1: Questioned Costs for the First 30 Financial Audits
      Unsupported1          Ineligible2     Total Questioned Total Costs
     Questioned Costs Questioned Costs             Costs           Audited
              $232,742          $1,779,369          $2,012,111 $50,490,616

Reportable Conditions in Internal Control
and Material Instances of Noncompliance
In addition to questioned costs, the 30 financial audits disclosed 28 reportable conditions
in internal control and 45 material instances of noncompliance with agreement terms and
applicable laws and regulations. Three of the 30 financial audits disclosed 26 of the 28
reportable conditions and 17 of the 45 material instances of noncompliance.

The average number of reportable conditions and material instances of noncompliance
were 2.4 per audit. Fifteen of the 30 reports had neither reportable conditions nor
material instances of noncompliance.

    Table 2: Number of Reportable Conditions in Internal Control and Material
           Instances of Noncompliance for the First 30 Financial Audits
      Reportable Conditions in       Material Instances of
                          3
          Internal Control              Noncompliance 4              Total
                 28                            45                      73



1
   Unsupported questioned costs were not supported by adequate documentation or
lacked required prior approvals or authorizations.
2
  Ineligible questioned costs were explicitly questioned because they were unreasonable,
prohibited by the agreements or applicable laws and regulations, or were not program
related.
3
   Reportable conditions in internal control relate to significant deficiencies in the design
or operation of internal control that could adversely affect the recipient’s ability to record,
process, summarize, and report financial data.
4
   Material instances of noncompliance relate to noncompliance with agreement terms
and applicable laws and regulations that could have a direct and material effect on the
fund accountability statement of the organization.

                                                                                             2
CONCLUSION
This report provides the status and results of the first 30 financial audit reports of
USAID/West Bank and Gaza activities conducted in accordance with the statutory
requirements of the Consolidated Appropriations Acts of 2003, 2004, and 2005. We plan
to periodically issue status reports which will report on cumulative and comparative
results over time.




                                                                                    3
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/West Bank and Gaza provided additional
helpful information on the status of the program, including the status of
recommendations, the status of questioned costs, examples of questioned costs, and
examples of reportable conditions in internal control and material instances of
noncompliance. For example, USAID/West Bank and Gaza provided data that showed:

•   For the 30 audit reports that were released to the Mission, 18 of these reports
    included 45 recommendations; 19 recommendations were related to questioned
    costs and 26 were related to internal control and compliance issues.
•   For the status of the questioned costs of $2,012,111, $94,589 were disallowed and
    collected from recipients, $894,496 were allowed by the Mission, and $1,023,026
    were outstanding pending the Mission reaching a management decision with our
    office.
•   Examples of questioned costs included salary over billing, incorrect calculation of
    indirect costs, excess charges paid to subcontractors, compliance with source and
    origin requirements, and lack of prior USAID approval of procurement actions.
•   For the status of the 26 recommendations relating to internal control and compliance
    issues, in 11 cases the Mission agreed with the recommendation and was taking or
    took corrective actions, in 4 cases the Mission found that the recipient or contractor
    was in compliance with the agreement terms and applicable laws and regulations,
    and in 11 cases a management decision had not been reached with our office.
•   Examples of reportable conditions and material instances of noncompliance included
    improper procurement procedures, marking of fixed assets, incorrect calculation of
    indirect costs, noncompliance with source and origin waivers, and noncompliance
    with Acquisition and Assistance Policy Directive 02-04, “Implementation of Executive
    Order 13224—Executive Order on Terrorism Financing”.

USAID/West Bank and Gaza said that based on the materiality of the questioned costs
and the general findings on internal controls and compliance, the risk level according to
the audits appeared minimal. We can neither agree nor disagree that the risk level
appeared minimal, for two reasons. First, the new financial audit program for the West
Bank and Gaza is still in its early stages of reporting results. Second, assessing risk
needs to account for both internal and external factors, some being outside the span of
control of management. Examples of outside factors include significance and sensitivity.

USAID/West Bank and Gaza also said that, although the prevailing security situation had
adversely affected the Mission’s monitoring on projects, the Mission was taking proper
steps to ensure compliance by its contractors and grantees.

USAID/West Bank and Gaza also said that with regards to the audit recommendations,
the Mission was taking timely actions to ensure that management decisions were
reached and that outstanding recommendations were timely addressed and closed. We
agree and appreciate the Mission’s collaboration in ensuring that outstanding
recommendations are timely addressed.


                                                                                        4
                                                                          APPENDIX I


        Summary of West Bank and Gaza First 30 Financial Audits
                                                                           Reportable
                                                                          Conditions in
                                                 Total                Internal Control and
                                               Questioned Total Costs Material Instances of
# Report Number              Recipient           Costs     Audited       Noncompliance
                      American Near East
1    6-294-04-001-N   Refugee AID                       $0       $9,550         0
                      America-Mideast
                      Educational and
2    6-294-04-002-N   Training Services Inc.            $0    $348,869          0
                      DPK Consulting
3    6-294-04-003-N   International Inc.           $54,181   $7,970,020         0
4    6-294-04-004-N   Massar Associates                 $0    $610,991          0
5    6-294-04-005-N CARE International                  $0    $640,580          0
                    Camp Dresser &
                    McKee International
6    6-294-04-006-N Inc.                            $7,487   $1,319,924         10
                    Save the Children
7    6-294-04-007-N Federation                      $4,507    $129,838          0
8    6-294-04-008-N CH2M Hill                      $26,237   $3,483,509         2
                    Chemonics
                    International
9    6-294-04-010-N Incorporated                        $0   $8,128,089         0
                    Afaq General
10   6-294-04-011-N Contracting Group Ltd.         $17,182    $458,420          1
                    Save the Children
11   6-294-04-012-N Federation                          $0   $1,563,021         0
                    Save the Children
12   6-294-04-013-N Federation                          $0   $1,825,365         0
                    Save the Children
13   6-294-04-014-N Federation                          $0    $786,700          0
                    Save the Children
14   6-294-04-015-N Federation                          $0   $3,013,902         0
                    Camp Dresser &
                    McKee International
15   6-294-04-016-N Inc.                                $0    $288,536          1
                    Afaq General
16   6-294-05-001-N Contracting Group Ltd.          $3,566    $456,643          1
                    Development
17   6-294-05-002-N Alternatives Inc.              $15,706   $1,542,344         0
                    Young Men’s Christian
18   6-294-05-003-N Association                     $5,245   $1,840,418         2
                    Young Men’s Christian
19   6-294-05-004-N Association                     $1,672   $1,311,550         2
                    El Hanan Benevolent
                    Association for Mother
20   6-294-05-005-N and Child                     $206,432    $292,810          20


                                                                                     5
                                                                         APPENDIX I

                                                                            Reportable
                                                                           Conditions in
                                              Total                    Internal Control and
                                            Questioned Total Costs     Material Instances of
 #   Report Number        Recipient           Costs     Audited           Noncompliance
21   6-294-05-006-N IBM Corporation            $935,209 $3,186,273               13
22   6-294-05-007-N CARE International         $320,085 $2,003,628                4
23   6-294-05-008-N CARE International         $391,469 $2,349,906                3
                    American Near East
24   6-294-05-009-N Refugee AID                  $1,467   $2,416,505            4
                    American Near East
25   6-294-05-010-N Refugee AID                 $16,851    $557,415             4
                    American Near East
26   6-294-05-011-N Refugee AID                  $3,524   $1,355,025            4
                    American Near East
27   6-294-05-012-N Refugee AID                      $0    $553,125             2
28   6-294-05-013-N World Vision                 $1,291    $320,120             0
29   6-294-05-014-N World Vision                     $0   $1,274,005            0
                    Al Quds University
                    Center for
                    Development in
30   6-294-05-015-N Primary Health Care              $0    $453,535              0
                                  Totals=    $2,012,111 $50,490,616             73




                                                                                     6
                                                                            APPENDIX II




DATE:            March 8, 2005

TO:              David H. Pritchard, Regional Inspector General / Cairo

FROM:            James A. Bever, Mission Director / USAID West Bank and Gaza /s/

SUBJECT:         Information on audit program status and results of the first 30
                 financial audits of USAID West Bank and Gaza activities in accordance
                 with the statutory requirements of the Consolidated Appropriations
                 Act of 2003, 2004 and 2005. (Report No. 6-294-05-00x-S)

Reference:       Pritchard / Bever memorandum dated 2/28/05



USAID West Bank and Gaza Mission would like to thank the Regional Inspector
General/Cairo for their draft status report regarding the results of the first 30 financial
audits of USAID West Bank and Gaza activities. We have reviewed the subject report
and the following are our comments :

For the 30 audit reports that were released to the Mission, 18 of these reports included
45 recommendations; 19 recommendations were related to questioned costs and 26
were related to internal control and compliance issues. The Mission still needs to reach a
management decision with RIG/C for 17 recommendations relating to 6 audit reports.
There are also currently 31 recommendations relating to 10 audit reports that are
outstanding with M/MPI pending final action and/or reaching a management decision
with RIG/C.

Regarding questioned costs in the total amount of $2,012,111, the status of these costs
is as follows:

          $      94,589           Costs disallowed and collected from recipients
                894,496           Costs allowed by the Contracting / Agreement Officer
              1,023,026           Costs outstanding pending the Mission reaching a
                                  management decision with RIG/C
          $ 2,012,111             Total

Examples of questioned costs (due to lack of documentation or ineligibility) included
salary over billing, incorrect calculation of indirect costs, excess charges paid to
subcontractors, compliance with source and origin requirements, and lack of prior
USAID approval of procurement actions.


U.S. Agency for International Development
American Embassy
71, Hayarkon St.
Tel Aviv, Israel 63903
www.usaid.gov/wbg
                                                                          APPENDIX II


Regarding recommendations relating to internal control and compliance issues, the
status of these recommendations is as follows:

                11    Contracting/Agreement Officer agreed with the recommendation
                      and is taking or took corrective actions
                 4    Contracting/Agreement Officer found that the recipient/contractor
                      was in compliance with the agreement terms and applicable laws
                      and regulations and/or there were no internal control deficiencies.
                11    Management decision has not been reached with RIG/C.
                26    Total Recommendations

Examples of reportable internal control conditions and material instances of
noncompliance included improper procurement procedures, marking of fixed assets,
incorrect calculation of indirect costs, compliance with source and origin waivers, and
noncompliance with AAPD 02-04 “Implementation of E.O.13224 – Executive Order on
Terrorism Financing”.

Based on the materiality of the questioned costs and the general findings on internal
controls and compliance, the risk level according to the audits appears minimal.
Although the Mission monitoring on projects have been adversely affected by the
prevailing security situation, the Mission is taking proper steps to ensure compliance by
its contractors and grantees.

With regards to the audit recommendations, the Mission, with its contractors and
grantees, is taking timely actions to ensure that management decisions are reached with
RIG/C and that outstanding recommendations are timely addressed and closure reached
with M/MPI.




                                                                                       8
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
